               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Mail Transport Equipment –
          Needs, Distribution, and Use

                       Audit Report




                                         September 23, 2011

Report Number NL-AR-11-006
                                                                   September 23, 2011

                                                 Mail Transport Equipment – Needs,
                                                              Distribution, and Use

                                                         Report Number NL-AR-11-006



IMPACT ON:
Network Operations - Mail Transport          comprehensive MTE needs analysis for
Equipment (MTE) at the Network               the NDCs and monitor the purchases of
Distribution Center (NDC).                   cardboard containers (other than Postal
                                             Paks) to ensure they are necessary for
WHY THE OIG DID THE AUDIT:                   NDC operations. We also recommended
Our objective was to determine whether       the vice president reissue the over-the-
the U.S. Postal Service effectively          road container policy to reflect present
planned for the needs, distribution, and     and future operational needs and use of
use of MTE during the planning and           the containers within and outside the
implementation of the NDC network.           network. Furthermore, we
MTE are various types of containers          recommended the vice president ensure
used to hold mail during processing and      that Postal Service Headquarters takes
transportation within or between Postal      a more active role in managing and
Service facilities. Rolling stock are MTE    monitoring the needs, distribution, and
with wheels.                                 use of MTE rolling stock within the NDC
                                             network.
WHAT THE OIG FOUND:
There was an imbalance of MTE rolling        WHAT MANAGEMENT SAID:
stock in the network, with some NDCs         Management agreed with the findings
having excess rolling stock and other        and recommendations. Management
centers having a shortage. This              stated they would conduct a
occurred because Postal Service              comprehensive rolling stock needs
Headquarters did not perform a               assessment; implement controls on the
comprehensive analysis of needed MTE         use of cardboard; re-issue and
rolling stock. In addition, the Postal       re-enforce policy on OTRs; and increase
Service did not enforce or, in some          controls over redistribution of OTRs in
cases, establish effective processes to      the NDC network.
manage, control, and redistribute
existing MTE rolling stock. As a result,     AUDITORS’ COMMENTS:
some NDC sites purchased cardboard           Management’s comments are
containers they may not have needed          responsive to the recommendations in
for about $3.4 million in Fiscal Year (FY)   the report and corrective actions should
2009 and $4.1 million in FY 2010.            resolve the issues identified in the
                                             report.
WHAT THE OIG RECOMMENDED:
We recommended the vice president,
Network Operations, perform a                Link to review the entire report
September 23, 2011

MEMORANDUM FOR:            DAVID E. WILLIAMS
                           VICE PRESIDENT, NETWORK OPERATIONS


                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Mail Transport Equipment – Needs,
                           Distribution, and Use
                           (Report Number NL-AR-11-006)

This report presents the results of our audit of Mail Transport Equipment – Needs,
Distribution, and Use (Project Number 10XG052NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Susan M. Brownell
    Cynthia F. Mallonee
    Frank Neri
    John M. Dunlop
    Cathy L. Moon
    Susan A. Witt
    Corporate Audit and Response Management
                                                   Table of Contents
Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

MTE Rolling Stock Imbalance ............................................................................................. 2

Recommendations .............................................................................................................. 5

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 6

Appendix A: Additional Information..................................................................................... 7

   Background ...................................................................................................................... 7

   Objective, Scope, and Methodology ............................................................................... 8

   Prior Audit Coverage ..................................................................................................... 10

Appendix B: Other Impacts ............................................................................................... 11

Appendix C: Sites Visited .................................................................................................. 12

Appendix D: webMCRS Data............................................................................................ 13

Appendix E: Management’s Comments ........................................................................... 14
Mail Transport Equipment –                                                                              NL-AR-11-006
 Needs, Distribution, and Use


Introduction

This report presents the results of our audit of Mail Transport Equipment (MTE) –
Needs, Distribution, and Use (Project Number 10XG052NL000). This self-initiated audit
addresses operational, strategic, and financial risks. Our objective was to determine
whether the U.S. Postal Service effectively planned for the needs, distribution, and use
of MTE during its planning and implementation of Network Distribution Centers (NDCs).
The focus of our review was the management and control of MTE rolling stock 1 and the
purchase and use of cardboard containers within the NDC network. See Appendix A for
additional information about this audit.

In March 2010, the U.S. Postal Service completed the transition of its 21 bulk mail
centers (BMCs) into the NDC network, with the intent to better align workhours with
workload and improve utilization of long-haul transportation. MTE plays a vital role in
holding mail for transportation and distribution purposes in the NDC network. MTE are
containers of various types and include containers with wheels of varied sizes, shapes,
and materials (known as ‘rolling stock’), which is primarily used internally to move mail
within or between Postal Service facilities. The Postal Service also uses cardboard
containers of various sizes to supplement its inventory of MTE rolling stock. We
estimate the Postal Service has 1.9 million pieces of rolling stock (about 160,000 pieces
of which are OTR containers) and has purchased $7.5 million in cardboard containers
the past 2 years 2 to supplement its rolling stock inventory.

The Postal Service’s NDC Operations under Network Operations, assumed
responsibilities for developing operational instructions and national policies pertaining to
requirements, distribution, and use of OTR containers within the NDC network;
monitoring compliance with national MTE policies within the NDC network; and
providing operational advisory in the development of new equipment. Further, the
managers of the 21 NDCs, as well as the Postal Service’s geographic areas, are
responsible for day-to-day management of MTE and for monitoring the needs,
distribution, and use of rolling stock.

Conclusion

There was an imbalance of MTE rolling stock in the network, with some NDCs having
excess rolling stock while others had a shortage of rolling stock. This occurred because
Postal Service Headquarters did not perform a comprehensive analysis of needed MTE
rolling stock before NDC implementation; and did not enforce or, in some cases

1
  While the NDC network uses all types of rolling stock, NDCs have the primary responsibility of managing and
controlling the inventory of over-the-road (OTR) containers, which is a primary focus of the NDC network as it relates
to management of MTE.
2
  This covers cardboard containers purchased for the NDC network for fiscal years (FYs) 2009 and 2010, which are
funded in the field. This excludes the purchase of Postal Paks.
                                                           1
Mail Transport Equipment –                                                         NL-AR-11-006
 Needs, Distribution, and Use


establish effective processes to manage, control, and re-distribute existing MTE rolling
stock in the network after implementation. As a result, some NDC sites purchased
cardboard containers for about $3.4 million in Fiscal Year (FY) 2009 and $4.1 million in
FY 2010 that may not have been needed. See Appendix B for additional information.

MTE Rolling Stock Imbalance

We found an imbalance of MTE rolling stock within the NDC network where some
locations had excess rolling stock, while others had a deficit (see Table 1). See
Appendix D for a more detailed analysis of deficit and excess locations.

             Table 1. Number of Months of Excess/Deficit OTR containers
                           at NDC Locations for FY 2010
                                                      Number of     Number of
                                                      Months of    Months of OTR
                                                      Excess OTR    Container
                             NDC Location             Containers      Deficit
                    Atlanta NDC                           12            0
                    Chicago NDC                           10            2
                    Cincinnati NDC                         5            7
                    Dallas NDC                            12            0
                    Denver NDC                            12            0
                    Des Moines NDC                        11            1
                    Detroit NDC                            5            7
                    Greensborough NDC                     11            1
                    Jacksonville NDC                      12            0
                    Kansas NDC                             9            3
                    Los Angeles NDC                       12            0
                    Memphis NDC                           12            0
                    Minneapolis/St. Paul NDC              12            0
                    New Jersey NDC                        11            1
                    Philadelphia NDC                      12            0
                    Pittsburgh NDC                        11            1
                    San Francisco NDC                     11            1
                    Seattle NDC                           12            0
                    Springfield NDC                        9            3
                    St. Louis NDC                          7            5
                    Washington DC NDC                      5            7
                   Red numbers depict a deficit

We conducted site visits at several NDCs and observed the MTE flow being further
impacted since some centers were not distributing the surplus MTE rolling stock within


                                                  2
Mail Transport Equipment –                                                                             NL-AR-11-006
 Needs, Distribution, and Use


the network. Instead, these facilities were stockpiling OTR containers to meet seasonal
fluctuations.

The Postal Service established policy to ensure OTR containers were being used only
within specified Postal Service facilities and operations, mainly in the NDC network. In
addition, in May 2011, the Postal Service implemented the use of MTE inventory counts
in the Plant Mail Transport Equipment Inventory User Guide, requiring all plants,
including NDCs, to count excess rolling stock weekly. The counts were tracked in the
Web Mail Condition Reporting System (webMCRS), 3 which was used to create the NDC
OTR matrix. 4 The NDC OTR matrix was established for tracking and redistributing OTR
containers using existing transportation to achieve balance and availability of MTE
rolling stock inventory within the NDC network.

The following caused the imbalance of MTE rolling stock.

   No NDC MTE Needs Requirement Analysis Performed. A comprehensive needs
    requirement analysis of MTE rolling stock was not conducted before the planning
    and implementation of the NDC network. A needs requirement analysis would have
    helped ensure sufficient availability of MTE rolling stock and distribution throughout
    the NDC network to sustain the increased demand for rolling stock as the NDCs
    assumed more processing activities. 5 Management stated they had not conducted a
    comprehensive needs requirement analysis, because they intended to use a new
    type of MTE in the network. However, they had not performed the required analysis
    to evaluate planned usage of the new MTE and its impact on the use and distribution
    of the existing MTE inventory in the NDC network. A comprehensive needs
    requirement analysis should identify the total available rolling stock within the Postal
    Service network; the rolling stock required by each NDC to meet its operational
    requirements daily; and the number of days of rolling stock each NDC is authorized
    to have ‘on hand.’ The analysis should also include all applicable direct and related
    costs, such as the cost of transportation to distribute rolling stock, the total cost of
    purchasing cardboard, the life expectancy of cardboard in terms of how many uses
    per cardboard container, and other costs, such as forklift costs.




3
  A repository for information related to facility conditions. Each facility manually enters data into the webMCRS
system for use in the NDC network to report excess MTE rolling stock, including OTR containers, to provide visibility
of these MTE types to headquarters.
4
  The NDC ‘matrix’ is labeled both the NDC MTE matrix and NDC OTR matrix. The NDC OTR matrix has been
prepared on an as-needed basis but is generally prepared quarterly.
5
  As a result of implementation of the NDC network, these centers began processing destinating and originating turn
                        ®
around Standard Mail , Periodicals, and package services; and six NDCs process First-Class Mail and Priority Mail.


                                                          3
Mail Transport Equipment –                                                     NL-AR-11-006
 Needs, Distribution, and Use




                                OTR containers used on Parcel Sorter –
                                  Cincinnati NDC – October 26, 2010.
                                Source: OIG.

   MTE Leakage. Management did not enforce its policy on the exclusive use of OTR
    containers at specified postal facilities and operations. In addition, before
    implementation of the NDC network, there were dedicated trips between and within
    facility intra-service areas, which provided ‘closed loop’ available transportation for
    MTE distribution. This ‘closed loop’ transportation activity substantially diminished
    with the implementation of the NDC network, disrupting the distribution and flow of
    rolling stock and other MTE types across the entire Postal Service network. We
    observed leakage of OTR containers, which were being routinely used at postal
    operations outside the NDC network. For example, the Cincinnati NDC experienced
    shortfalls of OTR containers, as the Cincinnati Processing and Distribution Center
    (P&DC) sent OTR containers from its outgoing distribution operations to other out-of-
    area postal facilities for its First-Class and Priority Mail.

   Ineffective Monitoring and Compliance. Tracking controls were set up to ensure the
    Postal Service maintained the proper balance of OTR containers; however, the
    Postal Service has not effectively monitored compliance using these tools. For
    example, the Dallas NDC, a surplus OTR container site, was dispatching mail to the
    Cincinnati NDC in Postal Paks rather than in OTR containers. We identified the
    Cincinnati NDC as a deficit OTR container site, experiencing constant lack of
    available OTR containers for its operations. This resulted in the need for the
    Cincinnati NDC to continuously purchase tall cardboard boxes for its parcel
    processing operations. Had there been adequate oversight and controls in place to
    ensure compliance, the Cincinnati NDC may not have spent more than $600,000 for
    cardboard boxes in FYs 2009 and 2010.




                                                 4
Mail Transport Equipment –                                                    NL-AR-11-006
 Needs, Distribution, and Use




                          Cardboard boxes on pallets used to supplement
                        OTR containers – Cincinnati NDC – October 26, 2010.
                        Source: OIG.


Overall, the imbalance of MTE rolling stock caused some NDCs to purchase cardboard
containers. These purchases of cardboard for about $3.4 million in FY 2009 and $4.1
million in FY 2010 may not have been necessary if available MTE rolling stock was
effectively distributed to NDCs based on need.

Recommendations

We recommend the vice president, Network Operations:

1. Perform a comprehensive mail transport equipment needs analysis for the network
   distribution center network to determine the amount of rolling stock, by type, needed
   on a daily basis to meet operational requirements.

2. Monitor the purchases of cardboard containers (other than Postal Paks) for network
   distribution center facilities to ensure they make only necessary purchases and are
   the best mail transport equipment option for the Postal Service given rolling stock
   inventory in the network.

3. Reissue over-the-road container policy to reflect the present and future operational
   needs and use of the containers within and outside the network.

4. Ensure Network Operations takes a more active role in the management and
   monitoring of the need, distribution, and use of existing mail transport equipment
   rolling stock within the network distribution center network.




                                                 5
Mail Transport Equipment –                                                  NL-AR-11-006
 Needs, Distribution, and Use


Management’s Comments

Management agreed with our findings and recommendations. Management stated they
would conduct a comprehensive baseline analysis to determine the amount of rolling
stock needed to meet NDC operational requirements. Management also stated they will
implement tracking controls to monitor cardboard purchasing at NDCs, agreed to
update the OTR policy, and reissue guidelines on OTR use. Finally, management stated
they would update the frequency of reporting for the NDC OTR matrix to ensure more
effective management and redistribution of OTRs to balance the supply in the NDC
network. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and corrective actions should resolve
the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           6
Mail Transport Equipment –                                                                              NL-AR-11-006
 Needs, Distribution, and Use



                                 Appendix A: Additional Information

Background

The NDC Network. The BMC network was a system of 21 BMCs, which processed bulk
mail such as magazines, advertisements, and merchandise shipped by major mailers.
In May 2009, the Postal Service began developing an internal re-engineering effort
focused on transforming its former BMCs into NDCs to consolidate the processing and
dispatching of mail to achieve economies of scale, greater operational efficiency, and
reduced transportation. The NDC transformation was to improve the flow of mail into the
network, consolidate package distribution, improve transportation utilization, and save
money. When the BMCs were transitioned into the NDC network, the mission was
expanded to include processing operations.

MTE – Rolling Stock and Cardboard. MTE rolling stock consists of various types of
containers with wheels used to hold mail during processing and transportation within or
between Postal Service facilities. Rolling stock consists of various types of containers
with wheels of varied sizes, shapes, and materials (including aluminum, canvas, and
plastic). One type of rolling stock, which is used in the NDC network, is the OTR
container, 6 designed to move bulk business mail and Parcel Post ® within and among
facilities using tow-lines at the NDCs. NDCs also use cardboard containers in various
sizes (ranging from 30 to 69 inches), including Postal Paks, 7 which are used in
conjunction with plastic pallets and require the use of a forklift to move between mail
processing operations and to trailers for dispatch.




                    OTR Container – Light Duty                     OTR Container – Heavy Duty

                       Source: Postal Service’s MTE List (with MTE descriptions and pictures).


The NDC Pak. During NDC planning and implementation, the MTE Headquarters group
tested other cardboard containers and pallets (known in combination as the ‘NDC Pak’)
designed specifically for the NDC network to maximize trailer load utilization from floor
to ceiling and reduce transportation costs. The NDC Pak was suppose to be a stackable

6
  OTR containers are large aluminum containers on wheels designed for use with automatic container loaders and
unloaders or for safe and mechanized unloading of bulk items.
7
  Postal Paks are rigid 69-inch triwall fiberboard boxes used on specific mail processing equipment exclusively within
the NDC network and funded by Postal Service Headquarters.


                                                          7
Mail Transport Equipment –                                                                              NL-AR-11-006
 Needs, Distribution, and Use


cardboard container to be used on automated package processing systems and small
parcel bundle sorters to reduce the network’s reliance on rolling stock and increase
trailer use. A 28- and 44-inch cardboard prototype sleeve was tested along with the
supporting base pallet designed for the sleeves at a total cost of over $1.1 million. 8
However, the NDC Pak had operational constraints, which made it difficult to stack and
use. As such, further development and deployment of the NDC Pak was discontinued.
No other alternative was considered beyond the use of regular cardboard containers as
described in the previous section.

OTR Policy. The vice president, Network Operations, issued a policy letter on OTR
Container Usage on August 28, 2009, which provided standardized policy for the usage
and transporting of OTR containers, for the NDC network. The policy stipulates that
OTR containers should be used in a ‘closed loop’ either between NDCs, or between
Postal Service plants and their servicing NDCs. This policy further stipulates exceptions,
providing plants outside of the NDC network may use OTR containers if it has
processing equipment that is designed to use OTR containers, or it uses OTR
containers as the primary means of conveyance to a FedEx Terminal Handling Services
site.

Objective, Scope, and Methodology

The objective of our audit was to determine whether the Postal Service effectively
planned for the need, distribution, and use of MTE during its planning and
implementation of the NDC network.

To accomplish our objective, we assessed the MTE management and control
weaknesses identified in our prior audits of the Pacific and Eastern areas and
headquarters to identify issues, which would impact management of MTE within the
NDC network, including the need, distribution, and use of MTE. For this audit, we
focused on the need, distribution, and use of rolling stock and cardboard containers
within the NDC network. Regarding cardboard containers, we looked at the purchase
and use of 30- through 60-inch cardboard containers within the NDC network. However,
we excluded Postal Paks because of the nature of there use and distinct role within the
NDC network.

We conducted interviews with representatives from Headquarters’ Network Operations
(NDC Operations and the MTE Group) and Supply Management (MTE and Spare
Parts) to understand the MTE program within the NDC network. We reviewed the
management of MTE rolling stock and cardboard containers at six NDCs, as well as
operations at four P&DCs and three terminal handling services (THS) sites to assess
the control environment and make observations (see Appendix C for a list of facilities
included in this audit). In addition, we reviewed national MTE policies and procedures,
NDC planning documents, NDC OTR matrices, and other documents relating to

8
 The Postal Service procured more than 3,600 28-inch sleeves and more than 20,400 44-inch sleeves with 46,500
specialized pallets for the testing phase. While the NDC Pak was discontinued, we did see that facilities found other
uses for the sleeves and pallets to deplete the inventory of the NDC Paks.


                                                          8
Mail Transport Equipment –                                                                        NL-AR-11-006
 Needs, Distribution, and Use


management of MTE within the NDC network. Further, we estimated current MTE
‘rolling stock’ inventory (much of which was purchased before FY 1999) based on
scanning of Surface Visibility (SV) barcodes 9 for a 12-month period. The scans provide
the minimum number of rolling stock pieces in the Postal Service network nationally,
because not all MTE is scanned due to SV scanning compliance issues, missing bar
codes, and MTE not in use and stored at various Postal Service locations. We also
reviewed purchases of cardboard containers within the NDC network covering FYs
2009 and 2010.

We assessed the reliability of computer-generated cardboard purchase data obtained
through the Postal Service’s system for ordering goods and services (eBuy2) used in
our analyses by reviewing existing information about the data. To validate the data, we
obtained purchase data source documents and reviewed against the computer
generated data. In addition, we assessed the reliability of computer-generated data from
the webMCRS in our analysis for determining excess rolling stock. To validate the data
we verified the numbers reported by NDC facilities during interviews conducted. We
determined the data were sufficiently reliable for the purposes of this report.

We conducted this performance audit from September 2010 through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 29, 2011, and included their
comments where appropriate.




9
 SV is a technology system that enables the tracking of mail volume between processing plants and NDCs by
scanning bar-coded rolling stock and other MTE.


                                                       9
Mail Transport Equipment –                                                                 NL-AR-11-006
 Needs, Distribution, and Use



Prior Audit Coverage

As reflected in the following table, since November 2009, the OIG has issued three prior
audit reports addressing the management of MTE. The audits covered the effectiveness
of the Postal Service’s management and control of MTE.

                                    Final
                      Report       Report       Monetary
 Report Title         Number        Date         Impact                 Report Results
 Management of                                                  The Postal Service did not provide
 Mail Transport                                                 appropriate guidance, supporting
 Equipment –                                                    systems or resources, or ensure that
 National                                                       MTE requirements were monitored
                    NL-AR-10-009   9/29/2010    $29.1 million
 Analysis                                                       and enforced at headquarters and in
                                                                the field. Management generally
                                                                agreed with our findings and
                                                                recommendations.
 Management of                                                  The Eastern Area’s effectiveness
 Mail Transport                                                 was limited over the management
 Equipment –                                                    and control of MTE. Area officials did
 Eastern Area                                                   not always ensure adequate controls
                    NL-AR-10-004   3/17/2010         $0         over inventory and accountability
                                                                processes required by national MTE
                                                                policies and procedures.
                                                                Management agreed with our
                                                                findings and recommendations.
 Management of                                                  The Pacific Area’s management and
 Mail Transport                                                 control of MTE was ineffective. The
 Equipment –                                                    area did not always ensure
 Pacific Area                                                   compliance with inventory and
                    NL-AR-10-001   10/22/2009        $0
                                                                accountability processes nor ensure
                                                                the safeguarding of assets.
                                                                Management generally agreed with
                                                                our findings and recommendations.




                                                10
Mail Transport Equipment –                                                                                 NL-AR-11-006
 Needs, Distribution, and Use


                                           Appendix B: Other Impacts

                     Finding                        Impact Category                                 Amount
                        1                 Financial Assets at Risk 10                              $7,524,423

We calculated the other impacts based on the following methodology and assumptions:

      We identified financial assets at risk as the cardboard purchases for the NDCs for
       the last two complete fiscal years, covering 2009 and 2010.

      We did not include Postal Paks in our calculation of purchased cardboard containers
       due to specific mail processing equipment requiring the use of only a Postal Pak
       within the NDC network.

      Total cardboard purchases for the NDCs for FYs 2009 and 2010 were obtained
       through the Postal Service’s eBuy management purchase data.

      We considered cardboard purchases between FYs 2009 and 2010 as not being
       sufficiently justified due to excess rolling stock we observed on-hand at Postal
       Service facilities and other sites.




10
     Assets at risk are assets that are at risk of loss because of inadequate internal controls.


                                                              11
Mail Transport Equipment –                                                                       NL-AR-11-006
 Needs, Distribution, and Use



                                      Appendix C: Sites Visited

     Postal Area     Postal Service or Contractor                Location              Facility Name
     Pacific         Postal Service Facility                Bell, CA                Los Angeles NDC
     Pacific         Postal Service Facility                Los Angeles, CA         Los Angeles P&DC
     Pacific         Contractor                             Torrance, CA            Los Angeles THS
     Eastern         Postal Service Facility                Cincinnati, OH          Cincinnati NDC
     Eastern         Postal Service Facility                Cincinnati, OH          Cincinnati P&DC
     Western         Postal Service Facility                Denver, CO              Denver NDC
     Western         Postal Service Facility                Denver, CO              Denver P&DC11
     Western         Contractor                             Denver, CO              Denver THS
     Western         Postal Service Facility                Federal Way, WA         Seattle NDC
     Western         Postal Service Facility                Seattle, WA             Seattle P&DC
     Western         Contractor                             Seattle, WA             Seattle THS
     Southwest       Postal Service Facility                Dallas, TX              Dallas NDC
     Great Lakes     Postal Service Facility                Allen Park, MI          Detroit NDC


We conducted interviews and made observations at 13 Postal Service-owned and
contracted facilities as follows:

      Number of Facilities Visited
              by Type                                        Type of Facility Visited
                  6                       NDCs
                  4                       P&DCs
                  3                       Contractor Terminal Handling Services




11
  We also reviewed the management of MTE rolling stock and cardboard containers at the Denver Mail Processing
Annex in conjunction with our site visit to the Denver P&DC.


                                                      12
             Mail Transport Equipment –                                                                           NL-AR-11-006
              Needs, Distribution, and Use


                                                Appendix D: webMCRS Data

             OTR CONTAINER INVENTORY REPORTED IN webMCRS FOR FY 201012

         NDC
       Location          OCT      NOV       DEC      JAN       FEB      MAR      APR       MAY       JUN       JUL       AUG     SEP
         Atlanta           600      578    35    79    49   200   200                        300       500       950     1,600   2,000
        Chicago            368        0 2,064 1,128     0    32   148                        244       180       512       128      64
       Cincinnati          161       33     0    33     0     0     0                         17        17         0         0       0
         Dallas          9,298    8,453 7,191 7,499 7,715 7,698 8,416                      8,541     8,471     7,997     7,718   7,596
         Denver          3,000    2,100   900 1,400 1,400 1,400 1,400                      1,400     1,100     1,400     1,100   1,100
      Des Moines             0    1,300   745   825   724   724   735                        900       724       542       647     532
         Detroit             0        0    18     0     0     0    54                          0        18        54        54       0
      Greensboro             0       18    18    86   692   500   752                        572       500       500       626     518
      Jacksonville       1,411    1,285   536   961 1,932   630 1,677                      1,407     1,753     1,573     1,915   1,789
      Kansas City           50       86     0    16     0     0   488                        648       696       649       649     414
      Los Angeles        6,420    6,000 2,085 9,360 1,104   805   332                        190       924       817       464     610
        Memphis            400      667   103    32   384   384   416                        320       320       304       304     240
     Minneapolis/St.
          Paul             118   170   161   202   167   100   100                           100       100       128       128     128
      New Jersey         1,200 2,560     0 3,716 2,368 1,688 1,912                         2,040     2,680     1,728     1,056     896
      Philadelphia       2,500   850   775   250   500   600   775                           775       700       700       850     775
       Pittsburgh            0   466    75    75    75    75    75                            19        22        60        30      21
     San Francisco          95    32    40   125   320    20     0                           135       370       130        73      18
         Seattle         3,400 3,969 2,575 3,970 3,800 3,900 3,980                         4,020     4,110     4,180     2,340   1,823
       Springfield       2,043 1,624     0    32     0 3,684 2,028                         1,452     1,257     1,288       600       0
        St. Louis            0     0     0    48     0   128    48                             0       768     1,206     1,260     980
      Washington
          D.C.                0        6         0       89         0        0     793           0        0    2,301     2,112      0

         Deficit - Zero indicates the NDC reported no empty OTR containers ‘on-hand’ for processing
         and transportation purposes at the time of the estimated OTR container count. NDCs do not
         report negative numbers for OTR containers. If NDCs did not have enough OTR containers on-
         hand, they would use other MTE types or cardboard containers.

         Excess – This reflects the estimated number of empty OTR containers on-hand at the time of
         reporting. Facilities should have an on-hand supply of OTR containers to meet operational
         requirements over a number of days, which varies by facility and mail volume. All OTR
         containers above this requirement are considered excess and should be redistributed.




12
  OTR container requirements will fluctuate from tour-to-tour and day-to-day depending on the day, month, and season. The data
above are ‘estimates’ of the number of empty or excess OTR containers as reported by each NDC in webMCRS.
                                                                        13
Mail Transport Equipment –                                 NL-AR-11-006
 Needs, Distribution, and Use


                       Appendix E: Management’s Comments




                                      14
Mail Transport Equipment –           NL-AR-11-006
 Needs, Distribution, and Use




                                15
Mail Transport Equipment –           NL-AR-11-006
 Needs, Distribution, and Use




                                16
Mail Transport Equipment –           NL-AR-11-006
 Needs, Distribution, and Use




                                17
